Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

September 17, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Faryion Edward Wardrip v. Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division, No. 21-5226
Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent Bobby Lumpkin,
Director, Texas Department of Criminal Justice, Correctional Institutions Division,
respectfully moves for an extension of the time for ﬁling his response to the petition
for a writ of certiorari in this matter. This is Respondent’s second request for an
extension of time.
This is a capital case. The response is currently due on September 27, 2021.
Respondent requests a 30-day extension, creating a new ﬁling date of October 27,
2021. My ofﬁce conferred with counsel for Petitioner on September 17, and
Petitioner does not oppose the requested extension.
No prejudice would arise from the requested extension. The extension is needed
because the undersigned counsel and other counsel assisting with this matter have
numerous brieﬁng and argument obligations, including:
• Ramirez v. Collier, et al., No. 21-5592 (capital case) in this Court (respondent’s
brief on the merits due October 15, set for argument November 1);
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Scott S. Harris
September 17, 2021
Page 2
• Luna v. Lumpkin, No. 21-5460 (capital case) in this Court (response to petition
for a writ of certiorari due October 25);
• Texas Department of Public Safety v. K.T., Nos. 20-0977 & 21-0075 in the
Supreme Court of Texas (petitioner’s reply brief due September 22);
• Texas v. Haaland, et al., No. 21-378 in this Court (petition for a writ of
certiorari ﬁled September 3);
• Texas, et al. v. Commissioner of Internal Revenue, et al., No. 21-379 in this Court
(petition for a writ of certiorari ﬁled September 3); and
• Whole Woman’s Health, et al., v. Jackson, et al., No. 21A24 in this Court
(response to application ﬁled August 31).
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for ﬁling a response to the petition for a writ of certiorari, creating a new
deadline of October 27, 2021.
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov
cc:

Bruce Anton (Counsel for Petitioner)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

